WAIVER

Supreme Court of the United States

No, 19-84

Lawrence Mulligan ve Bruce Jalbert, et al.
(Petitioner) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the pevition for a writ of certiorari vnless
one is requested by the Court.

Please check the appropriate boxes:
UW Please entex my appearance as Counse! of Record for all respondents. 7s

G There ere multiple respondents, and I do not vepresent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

& Tama member of the Bar of the Supreme Cour: of she United States.

OG Iam not presently a member of the Bar of thie Court, Should a response be requested,
the response will be filed by a Bar member, >

4
> Or ) ~C a“

Signature _~ 27E Li. z& oC

Date: August 2, 2019

(Type or print) Name. John M. Wolfson, Esq.
@ Mr. 0 Ms. O Mrs. O Miss

Firm Feiner Wolfson LiC
Address_ One Constitution Plaza, Suite 900
City & State Hartford, CT Zip 06103

Phone __. 860-713-8900

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Cc: Lawrence Mulligan

Obtain status of case on che docket. By phone at 202-479-3034 or via the internet at
http:/www.supremecourtus.gov. Have the Supreme Court docket number available
